           u.s. Small Business Administration
           Office of Inspector General            Memorandum
    To:    Eric R. Zamikow                                          Date:   December 28 , 2009
           Associate Administrator for Capital Access

  From:    Debra S. Ritt lSI original signed
           Assistant Inspector General for Auditing

Subject:   SBA's Administration of the Microloan Program under the Recovery Act
           ROM-lO-lO

           This memorandum presents the results of the initial phase of our audit of the Small
           Business Administration's (SBA) administration of the Microloan program under
           the American Recovery and Reinvestment Act of 2009 (Recovery Act). Under the
           Recovery Act, SBA received $6 million for direct loans and $24 million for the
           marketing, management, and technical assistance grants for the Microloan
           program. These funds were in addition to the $22.5 million that SBA was
           appropriated for the Microloan program in fiscal year (FY) 2009.

           The audit was initiated in response to Recovery Act language directing Offices of
           Inspectors General (OIG) to perform audits of their respective agencies to
           determine whether safeguards exist over the use of Recovery Act funds. The
           objectives for the initial phase of the audit were to determine the adequacy of
           SBA's (1) oversight of intermediaries, (2) performance data, and (3) program
           metrics for managing the Recovery Act funds authorized for the Microloan
           program. The next phase of the audit will determine the quality of microloans
           made with Recovery Act funds and SBA's progress in addressing the oversight
           weaknesses identified in this report.

           To determine the adequacy ofSBA's oversight, we reviewed ajudgmental sample
           of intermediary loan files and interviewed SBA officials from the Offices of
           Capital Access and General Counsel. To assess the adequacy of microloan
           performance data, we analyzed historical data maintained in the Microloan
           Program Electronic Reporting System (MPERS). To determine the sufficiency of
           program measurement, we also reviewed performance metrics established for the
                                                                                  2


program both prior and subsequent to the Recovery Act. Lastly, we reviewed a
judgmental sample of microloan borrower loan files to determine compliance with
SBA's policies and procedures. We conducted our review from June 2009 to
September 2009 in accordance with Government Auditing Standards prescribed by
the Comptroller General of the United States.

We found that SBA had not conducted adequate program oversight, validated the
reliability of program data, accurately reported program performance, or
established meaningful outcome-oriented performance measures. To ensure that
microloans made with Recovery Act funds are properly monitored and the
program has meaningful performance measures, we recommended that the
Associate Administrator for Capital Access: (1) revise the review process to
include an analysis of the sources and uses of MRF and LLRF funds based on
monthly financial statements; (2) examine, verify, and test microloan data reported
in MPERS; (3) develop a staffing plan and hire and train the additional staff
required to provide an adequate level of program oversight; (4) correct the
processes for calculating the number of small businesses assisted and jobs created
and retained; (5) develop additional performance metrics; and (6) collect and
analyze technical assistance data.

Management agreed with all six recommendations and stated that it was
committed to effective administration of the Microloan program. Management
stated that since January 2009, it has made significant progress toward drafting
Standard Operating Procedures, launching an automation initiative to provide
standardization and consistency of data reported by intermediaries, and developing
a risk mitigation plan for the Microloan program. In addition, SBA recently
awarded contracts to: (1) obtain advice on program and performance metrics; (2)
conduct training for intermediaries on proper data collection and reporting; and (3)
train intermediaries on assisting microloan borrowers in establishing credit
histories.

BACKGROUND

The Small Business Administration (SBA) is authorized under Section 7(m) of the
Small Business Act to make direct loans to intermediaries (nonprofit, community­
based lenders). An intermediary may obtain multiple SBA loans; however, the
total amount outstanding and committed may not exceed $750,000 in the first year
of participation, and $3.5 million in the remaining years. In addition, each
intermediary is required to contribute at least 15 percent of each loan from non­
borrowed, non-federal sources.

The intermediaries use SBA loan funds to make fixed-rate loans of $35,000 or less
to startup, newly-established, and growing small business concerns for working
                                                                                                                            3


capital and the acquisition of materials, supplies, furniture, fixtures, and
equipment. SBA also awards grants to intermediaries to provide marketing,
management, and technical assistance to potential and actual microloan borrowers.

Intermediaries are required to deposit their SBA related funds in two interest­
bearing deposit accounts-the Microloan Revolving Fund (MRF) and the Loan
Loss Reserve Fund (LLRF). The MRF holds the intermediary's SBA loans and
contributions, as well as payments from micro loan borrowers. Permissible
withdrawals from the MRF include micro loan disbursements, payments on
intermediary loans, and funds to establish the LLRF. Until an intermediary is in
the Microloan program for at least five years, it is required to reserve a balance in
its LLRF equal to 15 percent of the outstanding balance of the notes receivable
from its microloan borrowers. l The LLRF is used to cover any shortage in the
MRF due to microloan delinquencies and defaults.

In May 2003, we reported that: (1) SBA was not adequately monitoring the
Microloan program to identify duplicate and ineligible microloans; (2) the
program lacked Standard Operating Procedures (SOP); and (3) performance
standards for intermediaries were inadequate. In April 2009, we reported that
SBA had not taken final action to develop a comprehensive Microloan program
SOP, set program goals, or require outcome-oriented data from all program
participants. Despite these risk factors, SBA is now using the $6 million in
Recovery Act funds to provide additional loans to intermediaries.

RESULTS

Oversight Activities Are Not Sufficient to Ensure Effective Operation of the
Microloan Program

Because intermediaries are not regulated lenders, effective SBA oversight is
needed to ensure program integrity and that intermediaries are not imposing an
unacceptable credit risk on the program. SBA, however, does not adequately
monitor intermediary performance to ensure the program is operating as intended.
For example, SBA's oversight is focused on the intermediaries' ability to repay
their SBA loans and is limited to a cursory review of quarterly financial reports
supported by only one monthly bank statement. SBA had been receiving all
monthly bank statements from the intermediaries, but did not have the resources to
adequately evaluate the sources and uses of funds reported on the statements.
SBA policies now require that intermediaries submit only their last monthly bank


1   After an intermediary has been in the program for 5 years, it may request a reduction in its LLRF balance to an
    amount equal to the actual average loan loss rate during the preceding 5 year period, but not less than 10 percent of
    the intermediary's portfolio.
                                                                                                                   4


statements for their Microloan Revolving Funds and Loan Loss Reserve Funds?
The bank statements are used to simply verify the outstanding balances reported
on the intermediaries' quarterly reports. This review process does not allow SBA
to analyze the sources and uses of funds in the MRF and LLRF throughout each
quarter, which is necessary to detect inappropriate fund transfers between the
intermediaries' accounts that are indications of program weaknesses and misuses
of funds.

More thorough reviews of intermediaries' quarterly financial reports are also
important because SBA does not conduct regular on site reviews of intermediaries
to identify misuse of program funds and noncompliance with program policies and
procedures. Onsite reviews are conducted only when an intermediary defaults on
its SBA loan. The Agency believes that this practice is adequate because only
three to four intermediaries have defaulted since the onset of the program in 1992.
However, our audit revealed that one of the three intermediaries we reviewed was
not in compliance with program policies.

Inadequate staffing of the Microloan program has impacted SBA's ability to
provide the necessary level of oversight to ensure that program goals are met and
the program's integrity is maintained. The program operates with 6 analysts who
oversee more than 160 intermediaries, 460 intermediary loans, and approximately
2,500 microloans per year. In addition, these analysts are responsible for
reviewing all technical assistance grant reports. This workload limits the staff s
time to perform thorough reviews of intermediary reports and data. Furthermore,
inadequate staffled to SBA's decision to cease collection of some information that
was necessary to monitor the intermediaries' performance. Given the increased
funding provided under the Recovery Act, SBA needs to develop a staffing plan to
determine the resources required to address the weaknesses identified in this and
prior OIG reports. 3

The Reliability of SBA-Reported Performance Data is Questionable

SBA reported an average historical microloan default rate of 12 percent from FY
2004 to FY 2008, which appeared low given the high-risk nature of the program.
We found that (1) one intermediary made 1,182 microloans valued at over $11
million since 1993 and only reported slightly more than a I-percent historical
default rate, and (2) 39 other intermediaries, including one that made 242 loans



2   A description of these funds is provided in Appendix I.
3   OIG Report 3-26, The Microloan Program: Moving Toward Performance Management, issued May 13,2003; and
    OIG ROM 09-1, Review ofKey Unresolved OIG Audit Recommendations in Program Areas Funded by the
    American Recovery and Reinvestment Act of2009 and Related Activities Needed to Safeguard Funds, issued April
    30,2009.
                                                                                                             5


valued at over $3 million since 200 I, reported that none of the loans in their
portfolios had defaulted.

Further, our audit identified: (1) duplicate loan reporting, (2) multiple loans to
microloan borrowers in the same amount, indicating the use of revolving lines of
credit, which is disallowed by program regulations, and (3) 92 microloan
borrowers with outstanding microloan balances exceeding the $35,000 limit as of
May 2009. As a result, there may be errors in the data that are not being detected
and addressed.

We noted that all of the data used by SBA to report on Microloan program
performance is based on unverified information that is self-reported by
intermediaries. Although Recovery Act guidance issued by the Office of
Management and Budget (OMB) makes clear the importance of data verification
by requiring an unprecedented level of transparency and accountability in
reporting how Recovery Act funds are used, SBA does not test or verify the
reliability of loan performance data reported in MPERS. As a result, SBA cannot
ensure that the reported microloan default rates are accurate and comply with the
                .       4
statutory reqUIrement.

A detailed analysis of the intermediaries' bank statements would help identify
whether intermediaries are using other funds to keep microloans current or paying
them off to avoid reporting loan defaults. This analysis would allow SBA to
accurately assess program performance rather than taking the unsupported
information reported in MPERS at face value. Default rates reported by
intermediaries should be validated to ensure the program is meeting policy goals
in order determine the real risk of the program. We plan to test the default rates
reported by intermediaries during the next phase of our audit to determine the
reliability of the information that is reported.

Management Inaccurately Reported Program Performance and Has Not
Established Outcome-Oriented Performance Measures

SBA measures program performance based on the number of microloans funded
and small businesses assisted. SBA inaccurately reported the number of small
businesses assisted in FY 2008 because it assumed that every microloan made
represented a single assisted business, which was not the case. We determined
that at least 72 microloan borrowers received multiple microloans in FY 2008,
resulting in SBA overstating the reported number of small businesses assisted by
at least 4 percent. If corrections are not made to SBA's reporting process, the



4   Program regulations require intermediaries to maintain a maximum microloan default rate of 15 percent.
                                                                                      6


number of businesses assisted will continue to be overstated as the MPERS data
shows borrowers also received multiple loans in FY 2009.

Pursuant to Recovery Act reporting requirements, SBA also reports job creation
and retention data. Our audit determined that reported job creation and retention
statistics were overstated because jobs claimed duplicated that which had been
previously reported for the same borrower within the same fiscal year.
Furthermore, as of June 26, 2009, intermediaries reported that 47 borrowers had
received multiple microloans in FY 2009, which created 141 and retained 203
jobs. However, 12 of these loans appeared to be duplicates, resulting in an
overstatement of 22 jobs created and 40 jobs retained. Additionally, many other
loans showed questionable job creation and retention statistics. For example, one
borrower received 2 loans totaling $3,300 within a 2-month period and the
intermediary reported that 9 jobs were created and 3 jobs were retained for each
loan. We question how such small loans could help a business collectively create
 18 jobs. SBA will not be able to accurately report the use of Recovery Act funds
without making corrections to its existing reporting processes and providing
guidance to intermediaries on how to report job creation and retention data.

The performance metrics established for the program also do not ensure the
ultimate program beneficiaries, the microloan borrowers, are truly assisted by the
program. For example, the program does not measure the number of micro loan
borrowers who remain in business after receiving a microloan to measure the
extent to which the loans contributed to the success of borrowers. Furthermore, an
important facet of the Microloan program is the opportunity for micro loan
borrowers to receive marketing, management, and technical assistance from
intermediaries via SBA grants. However, SBA does not determine the effect that
technical assistance may have on the success of micro loan borrowers and their
ability to repay their microloans. This could be accomplished by requiring
intermediaries to report in MPERS the technical assistance provided in relation to
each microloan made. Without the appropriate metrics, SBA cannot ensure the
Microloan program is meeting policy goals and truly assisting the program's target
population.

RECOMMENDATIONS

We recommend that the Associate Administrator for Capital Access:

   1. 	 Require intermediaries to provide 3 months worth of bank statements with
        each quarterly financial report submitted to SBA and revise the review
        process to include an analysis of the sources and uses of MRF and LLRF
        funds. This process should assist in detecting inappropriate fund transfers
                                                                                      7


      between the intermediaries' accounts, which are indications of program
      weaknesses and misuses of funds.

   2. 	 Develop a staffing plan and hire and train the additional staff required to
        provide an adequate level of program oversight.

   3. 	 Examine, verify, and test microloan data reported by the intermediaries in
        MPERS to ensure loan defaults are accurately reported and that obvious
        inaccuracies and questionable transactions reported by intermediaries are
        identified and resolved.

   4. 	 Provide guidance to intermediaries and correct the processes used to
        calculate the number of small businesses assisted and jobs created and
        retained under the Microloan program to ensure accurate reporting on the
        use of Recovery Act funds.

   5. 	 Develop additional performance metrics to measure the program's 

        achievement in assisting microloan borrowers in establishing and 

        maintaining successful small businesses. 


   6. 	 Require intermediaries to report in MPERS the technical assistance
        provided in relation to each microloan made and use this data to analyze the
        effect technical assistance may have on the success of microloan borrowers
        and their ability to repay micro loans.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On November 19,2009, we provided a draft of this report to SBA for comment.
On December 16,2009, SBA submitted its formal comments, which are contained
in their entirety in Appendix II. Management agreed with all six
recommendations and stated that it was committed to effective administration of
the Microloan program. Management further stated that since January 2009, it has
taken several steps to improve program administration, including making
significant progress towards drafting SOPs, launching an automation initiative to
provide standardization and consistency of data reported by intermediaries, and
developing a risk mitigation plan for the Microloan program. In addition, SBA
recently awarded a contract to the Aspen Institute to advise on program and
performance metrics and to conduct training for intermediaries on proper data
collection and reporting. Finally, SBA recently awarded a contract to Credit
Builder's Alliance to work with intermediaries to assist microloan borrowers in
establishing credit histories.
                                                                                    8


Specific management comments on the report recommendations, and our
evaluation of them, are summarized below.

Recommendation 1

Management Comments

Management agreed that a more detailed review of the financial information
provided to SBA was appropriate. As part of this review, management will collect
three months of bank statements each quarter from intermediaries. Further, the
revised SOPs will incorporate appropriate guidance as to what information must
be submitted and how it will be reviewed by financial analysts to evaluate an
intermediary.

DIG Response

Management's comments were responsive to the recommendation.

Recommendation 2

Management Comments

Management stated that it is committed to adequately staffing the Microloan
program and indicated that it has taken several actions in this area. For example,
SBA conducted a staffing analysis and added three additional staff to support
increased program participation. SBA is also recruiting a Branch Manager for the
program and will reassess the overall staffing needs of the program once the
manager is in place and the procedural guidance and oversight structure is
finalized.

DIG Response

The actions taken and planned by management are responsive to the
recommendation.

Recommendation 3

Management Comments

Management agreed with the need for accurate program data and stated that
microloan data will be evaluated as part of the Office of Capital Access' overall
Recovery Act data quality initiative to identify areas for improvement. SBA is
currently considering MPERS modifications through the microloan automation
                                                                                     9


initiative, which will help ensure that the data collected is accurate. Furthermore,
Management stated that the revised SOPs will include guidance on data review
and procedures for following up with intermediaries to resolve data discrepancies.

DIG Response

Management's comments were responsive to the recommendation.

Recommendation 4

Management Comments

Management stated that it is committed to accurate reporting on small businesses
assisted and on job creation and retention. Management al so stated that it will
include the Microloan program in any actions taken to address reporting of this
data.

DIG Response

Management's comments were responsive to the recommendation.

Recommendation 5

Management Comments

Management stated it has contracted with the Aspen Institute to advise on
appropriate program and performance metrics for both micro loans and technical
assistance grants. The program metrics will assist SBA in measuring the
effectiveness of the program in assisting microloan borrowers.

DIG Response

Management's actions are responsive to the recommendation.

Recommendation 6

Management Comments

Management stated that it is currently considering modifications to existing
systems under its automation initiative to collect additional technical assistance
data and to provide reports that will assist in analyzing the effectiveness of
technical assistance. Furthermore, the Agency's contract with Credit Builders'
Alliance will provide training to enable intermediaries to better assist borrowers
                                                                                  10


increase their financial knowledge, improve their financial performance, and
create credit histories and/or improve their credit scores so that they may graduate
to traditional sources of credit.

DIG Response

Management's comments were responsive to the recommendation.

ACTIONS REQUIRED

Please provide your proposed management decision for each recommendation
within 30 days from the date of this report on the attached SBA Forms 1824,
Recommendation Action Sheet.
We appreciate the courtesies and cooperation of the Office of Capital Access
during this audit. If you have any questions concerning this report, please call me
at (202) 205-[FOIAex ~r Debra Mayer, Director, Recovery Oversight Group, at
(202) 205- [FOIA ex. 2]
                                                                               11


APPENDIX I. DESCRIPTION OF INTERMEDIARY FUNDS

Microloan Revolving Fund:

13 CFR 120.709 defines the Microloan Revolving Fund (MRF) as an interest­
bearing deposit Account into which an intermediary must deposit the proceeds
from SBA loans, its contributions from non-federal sources, and payments from its
microloan borrowers. An intermediary may only withdraw from this account the
money needed to establish the Loan Loss Reserve Fund (described below),
proceeds for each microloan it makes, and any payments to be made to SBA.

Loan Loss Reserve Fund:

13 CFR 120.710 defines the Loan Loss Reserve Fund (LLRF) as an interest­
bearing deposit Account which an intermediary must establish to pay any shortage
in the MRF caused by delinquencies or losses on microloans. An intermediary
must maintain the LLRF until it has repaid all obligations it owes SBA. Until an
intermediary is in the Microloan program for at least 5 years, it must maintain a
balance on deposit in the LLRF equal to 15 percent of the outstanding balance of
the notes receivable owed to it by its micro loan borrowers. This required reserve
percentage is equivalent to the maximum 15 percent microloan default rate
allowed under the program. After an intermediary has been in the Microloan
program for 5 years, it may request a reduction in the percentage of its portfolio
which it must maintain in its LLRF to an amount equal to the actual average loan
loss rate during the preceding 5 year period. The reduced amount cannot be less
than 10 percent of the intermediaries' portfolio.
                                                                                      12


 APPENDIX II. AGENCY COMMENTS 





                          u.s. SMALL BUSINESS ADMINISTRATION
                                    WASHINGTON,   D.C. 20416




   DATE: 	   December 16, 2009

     TO:     Debra S. Ritt 

             Assistant Inspector General for Auditing 


  FROM: 	    Eric R. Zamikow lSI original signed 

             Associate Administrator for Capital Access 


SUBJECT: 	   Draft Report on SBA's Administration of the Microloan Program
             under the Recovery Act, Project 9510


 Thank you for providing the opportunity to comment on this report.

 The Small Business Administration is committed to effective administration of the
 Microloan program and we appreciate your input on the issues provided in your report.

 We believe that both regular appropriated funding and Recovery Act funding of the
 SBA's Microloan program will playa significant role in boosting access to capital and
 helping to create and retain jobs for those very small businesses that the microloan
 program is designed to reach. We believe that program management and oversight are
 important means to identify and manage risk in the microloan portfolio. We have taken
 several steps to improve program administration, including significant progress toward
 drafting Standard Operating Procedures (SOP) for the Microloan program, launching an
 automation initiative to provide standardization and consistency of data reported by the
 microloan intermediaries, and developing a risk mitigation plan for the Microloan
 program. In addition, SBA recently awarded a contract to the Aspen Institute to advise
 on program and performance metrics, and conduct training for microloan intermediaries
 on proper data collection and reporting. Finally, SBA recently awarded a contract to
 Credit Builders' Alliance to work with intermediaries to assist microloan borrowers in
 establishing credit histories.
                                                                                       13


We appreciate the Inspector General's recommendations in this report, and we are taking
additional steps to help enhance program management and oversight. As we shared with
your staff, SBA has been working since January 2009 to enhance the administration of
the program and to develop a more robust approach to oversight.

Following are the Agency's responses to the IG's recommendations:

Recommendation 1: Require intermediaries to provide three months worth of bank
statements with each quarterly financial report submitted to SBA and revise the
review process to include an analysis of the sources and uses of MRF and LLRF
funds. This process should assist in detecting inappropriate fund transfers between
the intermediaries' accounts, which are indications of program weaknesses and
misuses of funds.

   • 	 We agree that a more detailed review of the financial information provided to
       SBA is appropriate. As part of this review, SBA will collect three months of bank
       statements each quarter from intermediaries. The revised SOPs will incorporate
       appropriate guidance as to what information must be submitted and how it will be
       reviewed by the financial analysts to evaluate an intermediary.


Recommendation 2: Develop a staffing plan and hire and train the additional staff
required to provide an adequate level of program oversight.

   • 	 SBA is committed to adequately staffing the micro loan program.
         o 	 A staffing analysis has been conducted and we have added three additional
             staff for the Recovery Act program to support increased program
             participation.
         o 	 In addition, a permanent employee was hired to replace a former staff
             member.
         o 	 SBA is also currently recruiting for a Branch Manager for the micro loan
             program. Once a Branch Manager is in place and the procedural guidance
             and oversight structure is finalized, the overall staffing needs of the
             micro loan program will be re-assessed.

Recommendation 3: Examine, verify, and test microloan data reported by the
intermediaries in MPERS to ensure loan defaults are accurately reported and that
obvious inaccuracies and questionable transactions reported by intermediaries are
identified and resolved.

   • 	 SBA agrees with the need for accurate program data. As part of Capital Access'
       overall ARRA data quality initiative, micro loan data will be evaluated to identify
       areas for improvements.
                                                                                       14


   • 	 SBA is currently considering MPERS modifications through the micro loan
       automation initiative that is underway. This initiative will allow the Agency to
       optimize and automate the micro loan program including helping to ensure that the
       correct data is being collected and that the data collected is accurate.
   • 	 SBA will include in the revised SOPs guidance on data review and procedures for
       following up with intermediaries to resolve discrepancies for both loan level and
       technical assistance data reporting.

Recommendation 4: Provide guidance to intermediaries and correct the processes
used to calculate the number of small businesses assisted and jobs created and
retained under the Microloan program to ensure accurate reporting on the use of
Recovery Act funds.

   • 	 As noted in previous OIG audit reports, SBA is committed to accurate reporting
       on small businesses assisted and job creation and retention. SBA will include the
       micro loan program in any actions taken to address reporting of this data.

Recommendation 5: Develop additional performance metrics to measure the
program's achievement in assisting microloan borrowers in establishing and
maintaining successful small businesses.

   • 	 SBA has contracted with the Aspen Institute, a recognized leader in the
       micro finance area with two decades of public policy expertise, to advise on
       appropriate program and performance metrics for both micro loans and technical
       assistance grants. The program metrics will assist SBA in measuring the
       effectiveness of the program in assisting micro loan borrowers.

Recommendation 6: Require intermediaries to report in MPERS the technical
assistance provided in relation to each microloan made and use this data to analyze
the effect technical assistance may have on the success of microloan borrowers and
their ability to repay microloans.

   • 	 SBA is currently considering modifications to eXIstmg systems under our
       automation initiative to collect additional technical assistance data and provide
       reports that will assist SBA management in analyzing the effectiveness of
       technical assistance.
   • 	 As noted above, SBA recently awarded a contract to Credit Builders' Alliance to
       work with intermediaries to assist micro loan borrowers in establishing credit
       histories. The training will enable intermediaries to better assist borrowers with
       (a) increasing their financial knowledge; (b) improving their financial
       performance; and (c) creating a credit history and/or improving their credit scores
       so that they may graduate to traditional sources of credit.
                                                                         15


Thank you again for your review. We look forward to continued engagement and
discussion with you on the Microloan program.
